No. 20-441

In the Supreme Court of the United States
MINNESOTA SANDS, LLC V. COUNTY OF WINONA, MINNESOTA

PROOF OF SERVICE
I, Aaron D. Van Oort, first being duly sworn, state that on October 19,
2020, I caused a true and correct copy of 2020-10-08 Petitioner’s Letter to
Clerk of Court Regarding Blanket Consent to Filing of Briefs Amicus Curiae
to be served on the following attorney of record by filing the same on the
Court’s electronic filing system and by arranging for the deposit of same in
the U.S. Mail, with First Class Postage prepaid, addressed to the following
attorney of record:
Jay T. Squires
Rupp, Anderson, Squires & Waldspurger, PA
333 South Seventh Street, Ste. 2800
Minneapolis, MN 55402
(612) 436-4300
jay.squires@raswlaw.com
Counsel for Respondent County of Winona

s/Aaron D. Van Oort

Aaron D. Van Oort
Subscribed and sworn to before me
this 19th day of October, 2020.

s/Barbara L. Nallick
Notary Public

My Commission Expires January 31, 2025

